Service, P.O. Box 1545, Memphis, TN 38101-1545. Please allow sixty (60) days for
your request to take effect.
Telephone Monitoring. You consent and agree that we may monitor and record your
telephone calls with our employees or contractors.
Merchant Refunds/Credits. Merchants are not allowed to make cash refunds for card
transactions on your credit card account, subject to a very few exceptions. Instead, if
the merchant grants your request for a refund, it is the merchant’s responsibility to send
a credit through Visa or MasterCard so that we can credit your account. You should
retain your copy of the credit slip prepared by the merchant. If the merchant discloses
a policy limiting or disallowing refunds, you will be bound by it. If you make travel or
lodging or other reservations, you will be bound by the merchant’s cancellation policy,
and you must obtain a cancellation code from the merchant to avoid or limit any charges
in accordance with that policy. If you give a merchant continuing authority to charge
your account for repeat charges, you must notify the merchant when you wish to revoke
that authorization. If the merchant continues to initiate such charges, to preserve your
billing rights you must continue to notify us promptly every time your billing statement
reflects a new charge.
Assignment. We may assign any or all of our rights under this Agreement, including
any debt you owe us.
Captions. Captions used in this Agreement are intended solely as aids to convenient
reference and do not affect the interpretation of this Agreement.
Applicable Law/Non-Waiver/Severability. YOUR ACCOUNT AND THE TERMS AND
ENFORCEMENT OF THIS AGREEMENT WILL BE GOVERNED BY FEDERAL LAW
AND THE LAW OF TENNESSEE. We can delay enforcing any of our rights under this
Agreement any number of times without waiving our rights in the future. If any term of
this Agreement is found to be unenforceable, all other provisions remain in full force
and effect.
Illegal Transactions. You agree not to make or permit to be made any illegal transactions
on the account through use of the card, any other account access device issued by us,
or in any other manner. We may, but are not required to, deny authorization for any
internet gambling transactions, any internet purchase of tobacco products, or any other
illegal transactions. You agree that illegal use of the card or the account will be deemed
an action of default and/or breach of contract and, in such event, the account and other
related services may be terminated at our discretion. You further agree that should illegal
use occur, you waive any right to sue us for such illegal use or any activity directly or
indirectly related to it, and you agree to indemnify and hold us harmless from any suits,
legal action, or liability directly resulting from such illegal use.
Lost or Stolen Cards/Unauthorized Use. If any card (or convenience check) is lost or
stolen or if you think someone used or may use your account without permission, you
agree to notify us immediately by calling 1-800-382-5465 or (901) 818-9250 (Collect)
if you are outside the continental United States. Upon our request, you agree to provide
us such written information as we request or require to assist our investigation.
Liability for Unauthorized Use. You will not be liable for any unauthorized use that
occurs after you notify us. You may, however, be liable for unauthorized use that occurs
before you notify us.
ARBITRATION PROVISION
ARBITRATION: PLEASE READ THE FOLLOWING ARBITRATION PROVISION
CAREFULLY. IT PROVIDES FOR MANDATORY ARBITRATION OF CONSUMER CLAIMS
(SUBJECT TO SOME EXCEPTIONS), INSTEAD OF COURT PROCEEDINGS. IF YOU OR
WE ELECT ARBITRATION OF A CLAIM, NEITHER WILL HAVE THE RIGHT TO PURSUE
THAT CLAIM BEFORE A JUDGE OR JURY IN COURT OR TO PARTICIPATE IN A CLASS

ACTION PROCEEDING. RIGHTS YOU WOULD HAVE IN COURT THAT MAY BE LIMITED
OR UNAVAILABLE IN ARBITRATION INCLUDE THE RIGHT TO CONDUCT DISCOVERY
OR TO APPEAL. FEES AND EXPENSES OF ARBITRATION MAY BE HIGHER THAN THOSE
ASSOCIATED WITH COURT PROCEEDINGS. THE ARBITRATOR’S DECISION WILL BE
BINDING, EXCEPT AS PROVIDED BELOW.
Agreement to Arbitrate. Upon the election of either you or us, any Claims (as defined
below), except for Claims filed in a small claims court, may be resolved by mandatory,
binding arbitration. The small claims court exclusion applies only so long as the dispute
remains in the small claims court and is an individual (non-class, non-representative)
Claim. If a Claim asserted in small claims court is transferred or appealed to a different
court, either you or we may then elect mandatory, binding arbitration pursuant to this
Arbitration Provision. This Arbitration Provision is made pursuant to a transaction
involving interstate commerce and shall be governed by and enforceable under the
Federal Arbitration Act (the FAA).
Definitions for Arbitration Provision. As used in this Arbitration Provision, the following
terms have the following definitions. The words we, our and us mean First Horizon Bank,
its parent company, and their direct and indirect subsidiaries and affiliates, together with
their employees, officers, directors, successors, and assigns. The words you, your, and
yours refer to any Consumer applicant, co-applicant, authorized user of the account, or
legal representative of any of the foregoing, and anyone claiming through such person
or incident to the account. The word “Consumer” means a natural person who holds an
account primarily for personal, family or household purposes. The word Claim means
any claim, controversy, or dispute of any kind arising from or relating to the account or
any relationship arising from or related to the account. The word Claim includes, but is
not limited to, any claim, controversy or dispute involving one or more of the following:
• the formation, application, enforceability, or interpretation of this Arbitration
Provision or other part of the Agreement;
• any advertisements, solicitations, disclosures or other communications relating
to the account, whether made before or after the account was opened;
• the opening, administration and termination of the account;
• any transactions involving the account;
• any interest, fees and other charges to the account;
• any products or services (whether provided by us or a third party) related to or
offered in connection with the account;
• any use or disclosure of information about you or the account;
• any other matters relating to the account or your credit card relationship with us.
All Claims Subject to Arbitration Provision. All Claims are subject to this Arbitration
Provision, regardless of whether the Claim: (i) previously existed, is now existing
(whether discovered or undiscovered) or arises later; (ii) is based on a theory of
contract, tort (including intentional tort), negligence, agency or other vicarious liability,
fraud, statute, regulation, constitution, or any other source of law or equity; (iii) seeks
monetary damages, or declaratory, injunctive relief, or other remedy or relief; (iv) is
asserted as an initial claim, counterclaim, crossclaim, interpleader action, third-party
claim or other action; or (v) is asserted as an individual claim or as part of a class action
or other representative or collective action. (Any Claim asserted as part of a class action
or other representative or collective action shall proceed in arbitration on an individual
basis as set forth below.) Joint Cardholders, applicants and authorized users on a single
account or multiple accounts for which the same Cardholders are legally responsible
will be treated as one person for this purpose. All questions about whether disputes are
subject to arbitration shall be resolved by interpreting this arbitration provision in the
broadest way the law will allow it to be enforced.

Initiation of Arbitration. The party electing arbitration must use the arbitration
administrator shown below and follow its rules and procedures, except as otherwise
stated in this Arbitration Provision. Copies of its current rules, procedures, forms, and
related information, including information about how to file a Claim, may be obtained by
contacting the Administrator as follows:
American Arbitration Association
Case Filing Services
1101 Laurel Oak Road, Suite 100
Voorhees, NJ 08043
Toll free number: 877-495-4185
http://www.adr.org
Except for the small claims court exclusion set forth above, either you or we may ask
an appropriate court to compel arbitration, or stay litigation pending arbitration, of any
Claim, even if the Claim is part of a lawsuit in court. A party who has asserted a Claim
in a lawsuit may nevertheless elect mandatory arbitration with respect to any Claims
subsequently asserted in that lawsuit by any other party. Delay in exercising these
rights shall not waive such rights. Failure to exercise arbitration rights with respect to a
particular Claim shall not waive your right or our right to demand arbitration of any other
Claim. If the Administrator declines to administer a Claim in arbitration, then either party
shall have the right to proceed with the Claim as a lawsuit in court, in which case the
Class Action Waiver set forth below still applies.
Class Action and Jury Waiver. You and we hereby knowingly and voluntarily (1) waive
the right to proceed as part of any class action and (2) waive the right to a trial by jury
of any and all Claims. No Claim submitted to arbitration is heard by a jury or may be
brought as a class action or as a private attorney general. You do not have the right to act
as a class representative or participate as a member of a class of claimants with respect
to any Claim submitted to arbitration (Class Action Waiver). Any Claim resolved by
arbitration shall be arbitrated on an individual basis by a single arbitrator. The arbitrator’s
authority to resolve Claims is limited to Claims between you and us alone, and the
arbitrator’s authority to make awards is limited to you and us alone. Furthermore, Claims
brought by you against us or by us against you may not be joined or consolidated in
arbitration with Claims brought by or against someone other than you, unless otherwise
agreed to in writing by all parties.
Severability. The parties to this Arbitration Provision acknowledge that the Class Action
Waiver is material and essential to the arbitration of any disputes between the parties
and is non-severable from this Arbitration Provision. If the Class Action Waiver is limited,
voided or found unenforceable, then the parties’ agreement to arbitrate (except for this
sentence) shall be null and void with respect to such proceeding, subject to the right to
appeal the limitation or invalidation of the Class Action Waiver. The parties acknowledge
and agree that under no circumstances will a class action be arbitrated. If any portion of
this Arbitration Provision, other than the Class Action Waiver, cannot be enforced, that
portion will be severed, and the rest of the Arbitration Provision will continue to apply.
Arbitration Procedures and Law. A single arbitrator chosen by the Administrator will
resolve Claims pursuant to the rules and procedures of the Administrator and this
Arbitration Provision. This Arbitration Provision will govern in the event of conflict with
the Administrator’s rules and procedures. Discovery procedures available to parties
will be limited by the Administrator’s rules and procedures. The arbitrator will apply
applicable substantive law consistent with the FAA and applicable statutes of limitations
and honor legally recognized claims of privilege. The arbitrator will have the power to
award any damages or other relief that would be available in court and are permitted
under the terms and conditions of this Agreement, but only with respect to the named
parties and the Claims being arbitrated. The arbitrator and this Arbitration Provision will

not be subject to federal, state, or local rules of procedure and evidence applicable to
lawsuits or to state or local laws relating to arbitration. Either party may choose to have
an arbitration hearing and to be represented by counsel. An arbitration hearing may be
conducted by telephone if the parties agree. Any participatory arbitration hearing that
you attend in person will occur at a place designated by the Administrator at a location
within the federal judicial district that includes your billing address or at some other
place agreed upon by you and us. The arbitrator will use reasonable efforts to protect
confidential information if requested to do so by any party. The arbitrator will make
any award in writing and, upon a timely written request, provide a written statement of
reasons for the award.
Costs of Arbitration. You and we will be responsible for paying the fees of the arbitrator
and any administrative fees charged by the Administrator according to the rules and
procedures of the Administrator. We will also pay or reimburse you for all or part of
other arbitration fees, if the arbitrator determines there is good reason to do so, and we
will pay any fees and costs, which we are required to pay by law or by the rules and
procedures of the Administrator. In addition, in the event that you receive an arbitration
award that is greater than our last written settlement offer, the arbitrator shall have the
discretion to require us to pay your attorneys’ fees and costs. Otherwise, each party will
bear its own attorneys’ fees and costs, regardless of who prevails.
Finality of Arbitration. The arbitrator’s decision is final and binding on the parties, except
for any right of appeal provided by the FAA. Costs will be allocated in the same way
as costs are allocated in arbitration by a single arbitrator. A final and binding award
is subject to judicial review only as provided by the FAA. An arbitration award will be
enforceable under the FAA by any court having jurisdiction.
Survival of Arbitration Provision. This Arbitration Provision shall survive: (i) termination
or changes in the Agreement and/or related agreements or programs, the account, and
the relationship between you and us concerning the account and related programs; (ii)
bankruptcy of any party; and (iii) any sale, assignment or other transfer of the account,
or any amounts owed on the account. Any different agreement regarding arbitration of
Claims must be agreed in writing.
Your Billing Rights: Keep this Document for Future Use
This notice tells you about your rights and our responsibilities under the Fair Credit
Billing Act.
What To Do If You Find A Mistake On Your Statement
If you think there is an error on your statement, write to us at: BankCard Center, P.O. Box
1545, Memphis, TN 38101-1545. : You may also login to Banking Online and submit a
transaction dispute. You will need to give us the following information:
• Account information: Your name and account number.
• Dollar amount: The dollar amount of the suspected error.
• Description of problem: If you think there is an error on your bill, describe what
you believe is wrong and why you believe it is a mistake.
You must contact us:
• Within 60 days after the error appeared on your statement.
• At least 3 business days before an automated payment is scheduled, if you want
to stop payment on the amount you think is wrong.
You must notify us of any potential errors in writing (or electronically). You may call us,
but if you do we are not required to investigate any potential errors; and you may have
to pay the amount in question.

7

8

9

10

What Will Happen After We Receive Your Letter
When we receive your letter, we must do two things:
1. Within 30 days of receiving your letter, we must tell you that we received your letter.
We will also tell you if we have already corrected the error.
2. Within 90 days of receiving your letter, we must either correct the error or explain to
you why we believe the bill is correct.
While we investigate whether or not there has been an error:
• We cannot try to collect the amount in question, or report you as delinquent on
that amount.
• The charge in question may remain on your statement, and we may continue to
charge you interest on that amount.
• While you do not have to pay the amount in question, you are responsible for the
remainder of your balance.
• We can apply any unpaid amount against your credit limit.
After we finish our investigation, one of two things will happen:
• If we made a mistake: You will not have to pay the amount in question or any
interest or other fees related to that amount.
• If we do not believe there was a mistake: You will have to pay the amount in
question, along with applicable interest and fees. We will send you a statement
of the amount you owe and the date payment is due. We may then report you as
delinquent if you do not pay the amount we think you owe.
If you receive our explanation but still believe your bill is wrong, you must write to us
within 10 days telling us that you still refuse to pay. If you do so, we cannot report you
as delinquent without also reporting that you are questioning your bill. We must tell you
the name of anyone to whom we reported you as delinquent, and we must let those
organizations know when the matter has been settled between us. If we do not follow
all of the rules above, you do not have to pay the first $50 of the amount you question
even if your bill is correct.
Your Rights If You Are Dissatisfied With Your Credit Card Purchases
If you are dissatisfied with the goods or services that you have purchased with your
credit card, and you have tried in good faith to correct the problem with the merchant,
you may have the right not to pay the remaining amount due on the purchase.
To use this right, all of the following must be true:
1 The purchase must have been made in your home state or within 100 miles of
your current mailing address, and the purchase price must have been more than
$50. (Note: Neither of these is necessary if your purchase was based on an
advertisement we mailed to you, or if we own the company that sold you the goods
or services.)
2 You must have used your credit card for the purchase. Purchases made with cash
advances from an ATM or with a check that accesses your credit card account do
not qualify.
3 You must not yet have fully paid for the purchase.
If all of the criteria above are met and you are still dissatisfied with the purchase, contact
us in writing at: BankCard Center, P.O. Box 1545, Memphis, TN 38101-1545. You may
also contact us by logging in to Banking Online and submitting a transaction dispute.
While we investigate, the same rules apply to the disputed amount as discussed above.
After we finish our investigation, we will tell you our decision. At that point, if we think
you owe an amount and you do not pay, we may report you as delinquent.

M-129674

11

8/19

CARDHOLDER AGREEMENT

and Disclosures Under The Federal Truth In Lending Act
Agreement and Definitions . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .1
Changes In Terms . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .1
Using Your Account . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .1
Introductory Rates . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .1
Standard (Variable) Rates . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .2
Promise to Pay . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .2
Credit Limit . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .2
Billing Statements . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .2
Making Payments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .2
Effects of Making Minimum Payments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .2
Application of Payments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .3
New Balance . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .3
Minimum Payment Calculation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .3
Form of Payments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .3
Payment Processing . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .3
Visa Money Transfer . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .3
Finance Charges . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .4
Interest Charges . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .4
Foreign Currency Transactions . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .4
Paying Interest . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .4
Grace Period for Purchases . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .4
Grace Period for Balance Transfers . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .4
Cash Advances . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .4
Calculating Average Daily Balance . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .4
Purchase Balance . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .4
Balance Transfer Balance . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .5
Cash Advance Balance . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .5
Other Fees and Charges . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .5
Cash Advance Fee . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .5
Returned Payment Fee . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .5
Late Payment Fee . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .5
Collection Costs and Attorneys’ Fees . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .5
Security Interest . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .5
Account Use by Others . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .5
Notices . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .6
Default/Entire Balance Due . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .6
Non-default Termination or Suspension . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .6
Credit Information . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .6
Promotions . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .6
Telephone Monitoring . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .7
Merchant Refunds/Credits . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .7
Assignment . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .7
Captions . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .7
Applicable Law/Non-Waiver/Severability . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .7
Illegal Transactions . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .7
Lost or Stolen Cards/Unauthorized Use . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .7
Liability for Unauthorized Use . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .7
ARBITRATION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .7
BILLING RIGHTS NOTICE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .10

Agreement and Definitions. This Cardholder Agreement, the folder containing your card
including the Account Opening Disclosure Table on the back of the folder, changes and
notices of changes we make to your account and/or this agreement as provided herein,
and all documents bearing your hand-written, electronic or digital signature (such as,
but not limited to, any application, convenience check or sales slip) or other evidence
of indebtedness on the credit card account constitute the contract governing your credit
card account (the “Agreement”). The words “you” and “your” refer to each person
jointly and severally (if more than one) who has applied for or otherwise agreed to
be responsible for the account. The words “we”, “our”, and “us”, mean First Horizon
Bank, and its successors, assigns, agents and/or authorized representatives. The word
“card” means each MasterCard or Visa card issued on the account. The card is our
property, and you agree to surrender it to us or our agent upon request. This Agreement
is binding on you unless you cancel your account within 30 days after receiving the
card and you have not used or authorized use of your account. This card is available
only to individuals for consumer use and will not be issued to sole proprietorships,
corporations, partnerships or limited liability companies.
Changes In Terms. You consent and agree that at any time we may add, delete, remove,
amend, or change any terms and conditions of this Agreement, including but not limited
to the Annual Percentage Rate (APR), fees or other terms. Such amendments may apply
to the unpaid balance and to new transactions, as allowed by applicable law. Reasons
we may change the terms and conditions of this Agreement include, but are not limited
to, risks associated with your account, economic and market conditions and trends,
product parameters, and our business needs and considerations. If we make such
amendments, you will receive advance notice and a right to opt out, as may be required
by the Agreement and applicable law.
Using Your Account. In addition to the card, we may furnish you checks which can be
used to access your account. You agree to use checks only in the form we furnish and
according to any instructions we give you. You cannot stop payment on checks used
to access the account. You may use your account to purchase goods and services and
to get Cash Advances.
Cash Advances include cash obtained from participating financial institutions and ATMs,
transactions using checks to access your account, and cash-equivalent transactions
(including purchases of travelers’ checks, casino chips and other items which Visa or
MasterCard rules, as applicable, designate as cash or cash-equivalent transactions).
The amount of a Cash Advance obtained from an ATM may include a surcharge imposed
by the ATM owner.
Purchases are transactions initiated with the card or account for the purchase of goods
or services from participating merchants (excluding cash-equivalent transactions) and
such other charges we designate as Purchases.
Only a payment made by us, at your request via our customer service center or our
website, to transfer all or part of your balance with another creditor to your account with
us will be considered and treated as a Balance Transfer under this Agreement. Your use
of a check used to access your account for any purpose is not considered a Balance
Transfer under this Agreement.
Introductory Rates. If we have offered you an Introductory Rate, the enclosed folder
containing your card (including the Account Opening Disclosure Table on the back of
the folder) provides information concerning the Introductory Annual Percentage Rate for
Purchases, Balance Transfers and Cash Advances and the length of the Introductory
Period. When the Introductory Period expires, your Standard (Variable) Rates and
monthly periodic rates (also shown on the enclosed folder containing your card and
Account Opening Disclosure Table will apply and may vary each month as described in
the Standard (Variable) Rates provision below.
1

Standard (Variable) Rates. Except as otherwise stated in this “Standard (Variable)
Rates” provision or upon amendment of this Agreement, the monthly periodic rates and
corresponding APRs used to compute the periodic interest charges on your account
will be variable rates which may increase or decrease for each new billing cycle based
on changes in the U.S. Prime Rate published in the “Markets Lineup” section of The
Wall Street Journal (“Prime”). Your corresponding APRs, divided by 12 and truncated
to the next one-thousandth percentage point will be your monthly periodic rates. Your
rates will not exceed the maximum we are allowed to charge under applicable law. We
will use the value of Prime published on the last business day of each calendar month
(the “Determination Date”) in order to calculate your APRs in effect from the first day
through the last day of your billing cycle ending in the calendar month following the
Determination Date. If more than one Prime rate is published on the Determination Date,
we will use the highest. An increase in your rates will increase your interest charges and
may increase your minimum monthly payment.
Your APRs on Purchases, Balance Transfers and Cash Advances could be different for
each of these categories of transactions and certain balances within these categories
(such as balances subject to promotional rates). Each APR will equal the sum of Prime
plus the applicable margin (“Margin”). Margin means the percentage points added to
the Prime Rate to calculate the APR. Your Margins, corresponding APRs and monthly
periodic rates for Purchases, Balance Transfers and Cash Advances are shown on the
enclosed folder containing your card which includes the Account Opening Disclosure
Table on the back of the folder.
Promise to Pay. You promise to pay us, in accordance with the terms of this Agreement,
for all transactions on your account, plus all interest, finance charges and other charges,
fees and expenses incurred on or in connection with the account. You will be individually
and, if applicable, jointly and severally liable for the total balance, whether the charges
are made by you or by a person authorized by you in any way to use your account in any
way. You cannot transfer or assign the account to another person.
Credit Limit. Your initial credit limit appears on the folder containing your card. We
may increase or decrease your credit limit at any time. Each of your billing statements
will reflect your credit limit in effect as of the date of the statement. You agree not to
conduct any transaction that would cause the total balance of your account to exceed
your credit limit. We may honor, at our discretion, transactions which exceed your credit
limit. You agree to pay any amount that exceeds your credit limit immediately upon
request. Without additional notice we may limit the number or dollar amount of account
transactions, and/or authorizations for transactions, within your credit limit for security
or other reasons.
Billing Statements. We will send or make available a billing statement for each monthly
billing cycle for which a Purchase, Balance Transfer or Cash Advance is posted to
your account or if there is a debit or credit balance of more than $1.00. The statement
will reflect each Purchase, Balance Transfer or Cash Advance transaction posted to
your account, your New Balance, Payment Due Date, Minimum Payment Due, Interest
Charges, Fees and other important information. Unless you notify us of any alleged
errors in accordance with the Billing Rights Notice in this Agreement, we may consider
the statement correct for all purposes.
Making Payments:
Effects of Making Minimum Payments. If you make only the minimum payment each
billing cycle, you will pay more in interest and it will take you longer to pay off your
balance.
Application of Payments. We will determine, at our discretion, the amount of and order
in which minimum payments will be applied to Purchases, Balance Transfers, Cash
Advances, Interest, Finance Charges and other fees and charges. If your account has
2

balances with different APRs, we will allocate your minimum payments to balances
subject to lower APRs before balances subject to higher APRs. If you make more than
the minimum payment, we will allocate amounts in excess of the minimum payment
to balances subject to higher APRs before balances subject to lower APRs, even if,
as required by applicable law, this allocation results in a loss of any Grace Period for
which you may otherwise have been eligible. This payment allocation method applies
to all higher APR balances, including transactions subject to higher APRs posted since
your last statement.
New Balance. The details and amount of your New Balance for each monthly billing
cycle will appear on your billing statement in the Summary of Account Activity section.
Minimum Payment Calculation. You may pay all or part of your balance at any time,
but each month you must pay at least the Minimum Payment Due shown on the billing
statement. If your New Balance is $25.00 or less, the Minimum Payment Due will be
the New Balance in full. Otherwise, the Minimum Payment Due will be the total of
(1) the greatest of (a) 2.5% of your New Balance, (b) 1% of your New Balance, plus
interest charges assessed in the current billing cycle, (c) any over limit amount in the
current cycle, or (d) $25.00; plus (2) net fees (excluding Cash Advance and Currency
Conversion Fees) in excess of $0 assessed in the current billing cycle; plus (3) all
amounts past due.
Form of Payments. Do not send cash by mail. If you pay by check or money order, the
check or money order must be in U.S. Dollars drawn on funds on deposit in a federallyinsured U.S. depository institution. However, we may, at our option, accept checks or
money orders drawn on non-U.S. banks and impose service and collection charges
on your account for processing such items. When you send a personal check to the
BankCard Center, we may initiate an electronic debit for the amount of your check to
your account at the financial institution on which the check was written. Your payment
will appear as an electronic debit on the statement for the account from which you made
payment and will include the name of the payee “BankCard Center”, the check number
and the payment amount. We can (but are not required to) accept late payments, partial
payments, payments marked or accompanied by “payment in full” or similar language,
or payments which are otherwise improper without losing any of our rights under this
Agreement, including our right to require payment of the entire balance.
Payment Processing. Payments accompanied by the payment coupon or other
information adequate to identify the appropriate account are proper payments. Proper
payments will be applied to your account as of the date received if received MondayFriday, excluding federal holidays, by the times shown below:
• Payments received at BankCard Center, P.O. Box 385, Memphis, TN 38101-0385
by 5:00 p.m. CT
• Payments delivered in person to and processed by an employee at a financial
center, or other bank location that accepts such payments, by close of business
at that location
• Payments made via Banking Online website by 8:00 p.m. CT
Proper payments received on a day that the bank does not process payments or later
than the times shown above will be applied the next business day. Any other payment
may not be applied until 5 days after receipt.
Visa Money Transfer. You have the ability to receive a credit transfer to your credit card
via a Visa Money Transfer under which you or a third party may transfer funds to you.
Funds will appear on the statement as a “Visa Transfer”, but funds will be treated as a
non-proper payment to your account within 2 business days of receipt. We have the
right to refuse/return a transfer restricted/prohibited by applicable federal, state or local
law or by this Agreement.

Finance Charges.
Interest Charges. We will impose periodic interest charges based on the monthly
periodic rates that apply to Purchase, Balance Transfer and Cash Advance average daily
balances. Periodic interest charges will begin to accrue on all average daily balances
from the date that transactions are posted to your account, except for Purchase and
Balance Transfer transactions that may be eligible for a grace period (see Paying Interest
section of this Agreement).
If the periodic interest charge calculated for a billing cycle in the manner described in the
Calculating Average Daily Balances section is less than $.50 but more than $.00, we will
impose a $.50 minimum charge (in addition to any applicable Cash Advance Fee(s)).
The amount of interest charged will be shown on your billing statement in the Interest
Charged section; except that, when imposed, the minimum charge will appear in the
Fees Charged section of your statement.
Foreign Currency Transactions. If a transaction on the account is in a currency other than
U.S. Dollars, Visa or MasterCard will convert the amount of the transaction (whether a
purchase, cash advance or credit) to U.S. Dollars as provided by Visa or MasterCard
rules then in effect. Currently, Visa and MasterCard rules provide that the exchange
rate between the transaction currency and the billing currency used for processing
international transactions will be a rate selected by Visa or MasterCard from the range of
rates available in wholesale currency markets for the applicable central processing date
(which rate may vary from the rate Visa or MasterCard itself receives) or the government
mandated rate in effect for the applicable central processing date. You agree to accept
the converted amount. We will charge you three percent (3%) of the amount calculated
by Visa or MasterCard as a Currency Conversion Fee. Each Currency Conversion Fee
will be itemized in the Transactions section on your billing statement. The total amount
of any Currency Conversion Fee(s) will be shown on your billing statement in the Fees
Charged section.
Paying Interest:
Grace Period for Purchases. You will have a grace period during which we will not
impose an interest charge on Purchases if you pay your New Balance by the Payment
Due Date shown on the billing statement each month. Otherwise, we will impose a
periodic interest charge on the average daily balance of Purchases.
Grace Period for Balance Transfers. You will have a grace period during which we will
not impose an interest charge on Balance Transfers if you pay your entire balance by
the Payment Due Date shown on the billing statement each month. Otherwise, we will
impose a periodic interest charge on the average daily balance of Balance Transfers.
Cash Advances. There is no grace period for Cash Advances. We will impose a periodic
interest charge on the average daily balance of Cash Advances.
Calculating Average Daily Balance:
Purchase Balance. To determine this average daily balance, we (a) start with the
previous Purchase balance at the beginning of each new billing cycle and subtract
any unpaid interest charge and unpaid fees which were included in that balance; (b)
determine the Purchase balance for each day of the billing cycle by subtracting any
payments and credits applied to the Purchase balance and by adding new Purchases;
and (c) at the end of the billing cycle, add these daily balances and divide the total by the
number of days in the billing cycle to determine the average daily balance for Purchases.
We then multiply this average daily balance by the monthly periodic rate that applies
to Purchases to determine the amount of your periodic interest charge on Purchases.
Balance Transfer Balance. To determine this average daily balance, we (a) start with
the previous Balance Transfer balance at the beginning of each new billing cycle
and subtract any unpaid interest charge and unpaid fees which were included in that

balance; (b) determine the Balance Transfer balance for each day of the billing cycle by
subtracting any payments and credits applied to the Balance Transfer balance and by
adding new Balance Transfers; and (c) at the end of the billing cycle, add these daily
balances and divide the total by the number of days in the billing cycle to determine the
average daily balance for Balance Transfers. We then multiply this average daily balance
by the monthly periodic rate that applies to Balance Transfers to determine the amount
of your periodic interest charge on Balance Transfers.
Cash Advance Balance. To determine this average daily balance, we (a) start with the
previous Cash Advance balance at the beginning of each new billing cycle and subtract
any unpaid interest charge and unpaid fees which were included in that balance; (b)
determine the Cash Advance balance for each day of the monthly billing cycle by
subtracting payments and credits applied to the Cash Advance balance and adding new
Cash Advances; and (c) at the end of the billing cycle, add these daily balances and
divide the total by the number of days in the billing cycle to determine the average daily
balance for Cash Advances. We then multiply this average daily balance by the monthly
periodic rate that applies to Cash Advances to determine the amount of your periodic
interest charge on Cash Advances.
Other Fees and Charges:
Cash Advance Fee. We will impose a Cash Advance Fee equal to 4% of each new Cash
Advance. However, the fee will not be less than $10 per transaction or more than the
amount allowed by applicable law or regulation. Each Cash Advance Fee will be itemized
in the Transactions section on your billing statement. The total amount of any Cash
Advance Fee(s) will be shown on your billing statement in the Fees Charged section.
Balance Transfer Fee. We will impose a Balance Transfer Fee equal to 4% of each new
Balance Transfer. However, the fee will not be less than $10 per transaction or more than
the amount allowed by applicable law or regulation. Each Balance Transfer Fee will be
itemized in the Transactions section on your billing statement. The total amount of any
Balance Transfer Fee(s) will be shown on your billing statement in the Fees Charged
section.
Returned Payment Fee. When a check or other payment on your account is not honored,
cannot be processed or otherwise cannot be applied to your account, we will charge
you a returned payment fee of up to $25.00 for the first occurrence and up to $35.00 for
any additional occurrences in the following six billing cycles.
Late Payment Fee. If we do not receive at least the minimum payment due on your
account by the Payment Due Date shown on your billing statement, we will charge you
a late payment fee of up to $25.00 for the first occurrence and up to $35.00 for any
additional occurrences in the following six billing cycles.
Collection Costs and Attorneys’ Fees. Except as prohibited by applicable law, you will
pay our collection costs and attorneys’ fees if you default under this Agreement.
Security Interest. Collateral furnished to secure any other credit you may owe us may
also secure this account. However, if collateral securing other credit is your personal
residence, we waive any claim we might otherwise have to treat that property as
collateral for this account.
Secured Credit Card. If you applied for and have been approved for a secured credit
card, you acknowledge that, as a condition for your secured credit card account, you
specifically intended to grant and have granted a security interest to us in funds held in
a deposit account with us (the “Security Account”) including funds deposited before
and after the effective date of this Agreement. You further acknowledge that funds in
your Security Account must remain on deposit during the term of this Agreement as
described in the separate Credit Card Security Agreement you have signed and delivered
to us.

Account Use by Others. Think carefully before you lend your card or authorize another
person to use your card or account. You cannot limit that person’s authority to use
the account, and you cannot terminate such authority (1) until we receive notice of
revocation; and (2) until you recover possession of the card.
Notices. If we have to notify you of anything concerning your credit card account, the
notice will be effective if we send it to your name and address as they appear in our
records or you receive such notice by any other means. You will notify us in writing
immediately if you change your name, address, telephone number or other pertinent
contact information. If you write to us for any reason other than to make a payment,
send your letter to: BankCard Center, P.O. Box 1545, Memphis, TN 38101-1545.
If you are one of our Banking Online customers who receives notices or statements
electronically, you will notify our Banking Online Department if you change your e-mail
address by following the instructions in your Banking Online Agreement. Additionally, if
you become aware of an error regarding how activity on this account appears on a credit
report, please write us at BankCard Center, P.O. Box 1545, Memphis, TN 38101-1545.
Default/Entire Balance Due. You will be in default if you fail to pay at least the minimum
payment shown on the billing statement, or fail to comply with any other term of this
Agreement or any other agreement with us, or in the event of your bankruptcy, death,
fraud or misrepresentation. If you are in default, we can demand immediate payment
of the entire balance and all fees and charges then owing on the account, as allowed
under applicable law.
Closing or Suspending your Account – Non-default. You may close your account at
any time by notifying us in writing or by calling us. If more than one person is obligated
under the Agreement, any one of them may close the account at any time and we may
immediately close the account after we receive such a request without giving notice to
other persons obligated for amounts owed under the Agreement. You agree that you
will not hold us responsible for any inconvenience, costs or damage you incur arising
from the closing of the account by one person obligated under the Agreement. You
may re-open your account after you close it provided one or both persons obligated
on the account provide(s) us with a written request to re-open it within 30 days after
the closure. We may close or suspend your account at any time without prior notice
unless required by applicable law. In the event of any closing or suspension, you will
immediately stop using the account in any way, you will return or destroy the card(s)
upon request, and you will contact anyone you authorized to charge transactions to your
account, such as phone companies or internet service providers, to change your billing
arrangement. You will remain obligated to pay the account balance and all fees and
charges according to the term of this Agreement or as otherwise agreed between us.
Additionally, if we extend credit to you because you use the account or pre-authorized
charges are paid after you close the account, you will be responsible for payment of
such credit in accordance with the Agreement.
Credit Information. You authorize us to make credit, employment and investigative
inquiries about you from time to time to credit reporting agencies and others until the
Agreement is terminated and the account balance is paid in full. You also promise to
provide current financial information upon our request. We may report information about
the account to credit reporting agencies, other creditors, Visa and MasterCard, and
others who may properly receive such information, in accordance with applicable law
and the Privacy Notice contained herein.
Promotions. From time to time, we may offer you temporary promotional terms. If we
do, we will advise you in writing of the scope and duration of the promotional terms,
and your regular terms will resume at the time our offer specifies. Occasionally, you
may be contacted about promotions, credit card enhancements and special products.
If you prefer not to receive this information, please write to us at BankCard Customer

3

4

5

6

